No. 19-287
IN THE SUPREME COURT OF THE UNITED STATES
JORGE L. MEDINA, PETITIONER
V.

WILLIAM P. BARR, ATTORNEY GENERAL
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 4TH day of November 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 3805 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
November 4, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-000 1
(202) 514-2217
November 4, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefsUSDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0287
MEDINA, JORGE L.
WILLIAM P. BARR, ATTORNEY GENERAL

JOSEPH GREENLEE
FIREARMS POLICY COALITION
1215 K STREET
17TH FLOOR
SACRAMENTO, CA 95814
970-485-3303
JOSEPHGREENLEE@GMAIL.COM
ALAN GURA
GURA PLLC
916 PRINCE STREET
SUITE 107
ALEXANDRIA, VA 22314
703-835-9085
ALAN@GURAPLLC.COM
JASON D. WRIGHT
WRIGHT LAW FIRM
40 FULTON STREET
23RD FLOOR
NEW YORK, NY 10039
212-683-4892
JWRTGHT@JASONWRIGHTESQ.COM

